                                                                             Report No. DODIG-2013-065



              I nspec tor Ge ne ral
                                                       Department of Defense


              APRIL 18, 2013




                     Quality Control Review of the
                     Defense Contract Management
                     Agency Internal Review
                     Audit Function




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                    INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                                  April 18, 2013
                                                                                  April XX, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT: Quality Control Review of the Defense Contract Management Agency Internal
         Review Audit Function (Report No. DoDIG--2013-065)
                                                   2013-XXX)

We are providing this report for your information and use. We have reviewed the Defense
Contract Management Agency (DCMA) Internal Review Team’s (IRT) system of quality control
in effect for the period ended May 30, 2012. A system of quality control for DCMA’s audit
function encompasses the audit organization’s leadership, emphasis on performing high quality
work, and policies and procedures established to provide reasonable assurance of compliance
with generally accepted government audit standards (GAGAS). The DCMA IRT is responsible
for designing a system of quality control and complying with its system to provide DCMA
management with reasonable assurance that its audits are performed and reported on in
accordance with GAGAS in all material respects.

We conducted our review in accordance with GAGAS and guidelines established by the Council
of the Inspectors General on Integrity and Efficiency (CIGIE). We tested the DCMA’s IRT
organization’s system of quality control to the extent we considered appropriate. GAGAS
require that an audit organization performing audits or attestation engagements or both have an
appropriate internal quality control system in place and undergo an external quality control
review at least once every 3 years by reviewers independent of the audit organization being
reviewed. An audit organization’s quality control policies and procedures should be
appropriately comprehensive and suitably designed to provide reasonable assurance that they
meet GAGAS requirements for quality control.

Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail. In our
opinion, the DCMA IRT organization’s system of quality control for audits was suitably
designed in accordance with the quality standards established by GAGAS. Accordingly, we are
issuing a pass opinion on DCMA’s audit organization for the period ended May 30, 2012.

In addition to reviewing its system of quality control to ensure adherence with GAGAS, we
applied certain limited procedures in accordance with guidance established by the CIGIE related
to DCMA IRT’s monitoring of engagements performed by Independent Public Accountants
(IPA) under contract where the IPA served as the principal auditor. It should be noted that
monitoring of engagements performed by an IPA is not an audit and therefore, is not subject to
the requirements of GAGAS. The purpose of our limited procedures was to determine whether
DCMA IRT had controls to ensure the IPA performed contracted work in accordance with
professional standards. However, our objective was not to express an opinion and accordingly,




                                                                                                    DODIG-2013-065 │ i
                      we do not express an opinion on DCMA’s monitoring of work performed by the IPA.
                      Appendix A contains background, comments and observations, and recommendations for
                      DCMA to improve its quality control system. Appendix B contains our review results of the
                      monitoring of the independent public accountants. Appendix C contains a summary of the
                      results of our interviews with the DCMA IRT audit staff. Appendix D contains the scope and
                      methodology of the review.

                      We appreciate the courtesies extended to the staff. For additional information on this report,
                      please contact Ms. Carolyn R. Davis at (703) 604-8877 (DSN 664-8877), or
                      Carolyn.Davis@dodig.mil.




                                                                       Randolph R. Stone
                                                                       Deputy Inspector General
                                                                        Policy and Oversight




ii │ DODIG-2013-065
Contents
Appendices
Appendix A: Background, Comments and Observations, and Recommendations__________1
Appendix B: Monitoring of Independent Public Accountants______________________________ 11
Appendix C: Summary of Interview Results Relating to
DCMA Audit Policies and GAGAS______________________________________________________________ 14
Appendix D: Scope and Methodology________________________________________________________ 15

Comments_______________________________________________________________________________ 17




                                                                                             DODIG-2013-065 │ iii
                                                                                                                          Appendices




Appendix A
Background, Comments and Observations,
and Recommendations
Background
Defense Contract Management Agency
The Defense Contract Management Agency (DCMA) is the DoD component that works
directly with Defense suppliers to help ensure that DoD, Federal, and allied government
supplies and services are delivered on time, at projected cost, and meet all performance
requirements. As of September 30, 2012, DCMA employed 10,478 civilian and 538 military
personnel, included 3 operations directorates and 46 contract management offices, and
oversaw 20,296 contractors with 344,000 active contracts.


DCMA Internal Review Team
The DCMA Internal Review Team (IRT) is part of the DCMA Office of Independent
Assessment. The Office reports directly to the Director of DCMA. The DCMA IRT has two
primary mission components:

             •	 conduct internal reviews (auditing) of administrative support programs,
                 systems, and processes to include determining the adequacy of existing
                 management controls, forming appropriate conclusions, and making
                 applicable recommendations to the Director of DCMA and

             •	 perform external audit liaison, coordination, and audit advisory services.

The Office consists of a supervisory auditor, one external liaison administrator, and six
auditors. The DCMA IRT began performance auditing in FY 2009. The DCMA IRT published
its first Audit Manual on April 30, 2010, and revised the Audit Manual on January 6, 2012.1


Comments and Observations
We are issuing a pass opinion because we determined that the system of quality control
for the DCMA IRT is adequately designed and functioning as prescribed. The findings we
identified during our review of the selected audit reports were not cumulatively significant
enough to rise to the level of a deficiency or significant deficiency, based on our opinion
and as defined by the Council of the Inspectors General on Integrity and Efficiency (CIGIE)


	1	
      Due to the timeframe of this review, we applied the DCMA Audit Manual, April 30, 2010, for reviews of audits.




                                                                                                                      DODIG-2013-065 │ 1
Appendices



                 Guide for Conducting External Peer Reviews of the Audit Organizations of Federal Offices
                 of Inspector General (CIGIE Guide).

                 We judgmentally selected two reports to review for compliance with generally accepted
                 government auditing standards (GAGAS) in nine areas: quality control, independence,
                 professional judgment, competence, audit planning, supervision, evidence, audit
                 documentation, and reporting. In addition, we selected one audit in which DCMA
                 performed monitoring of an independent public accounting firm for compliance with the
                 CIGIE Guide.

                 We identified five areas with findings relating to the quality control system, independence,
                 planning, audit documentation, and quality control of audits. In addition, we made
                 recommendations in relation to the monitoring of independent public accountants
                 (Appendix B). The review of the monitoring of the Independent Public Accountants (IPA)
                 does not affect the opinion of the DCMA IRT quality control review.


                 Quality Control Monitoring
                 During the period of our review, the DCMA IRT did not have an overall plan for quality
                 control monitoring. The DCMA IRT performed some quality control procedures to include
                 updating sections of the Audit Manual and performing reviews of previous audits. Also,
                 the Director, DCMA, initiated an intra-agency peer review of its internal audit mission and
                 IRT in June 2011 because a previous review had not been done. DCMA employees who
                 had experience as former Federal agency auditors with a working knowledge of GAGAS
                 performed the review.

                 As part of the quality control monitoring, we found that a checklist was used for one review
                 of an audit; however, for another review, only a summary of the review was provided,
                 but the checklist supporting the review could not be located. In addition, follow-up on
                 quality control monitoring was not performed to identify whether deficiencies found in
                 the reviews of audits were addressed.

                 GAGAS 3.532 states that audit organizations should establish policies and procedures
                 for monitoring of quality in the audit organization. Further, GAGAS 3.54 states the audit
                 organization should analyze and summarize the results of its monitoring process at least
                 annually with identification of any systemic or repetitive issues needing improvement,
                 along with recommendations for corrective action.


                 	2	
                       The newest version of GAGAS is dated December 2011. However, for this review we were required to use the July 2007
                       version of GAGAS, as it covered the period of our review, October 1, 2010, to May 30, 2012.




2 │ DODIG-2013-065
                                                                                                 Appendices



The DCMA Audit Manual, chapter 1, section 1.3, dated April 30, 2010, states that the
DCMA  IRT adopted the Comptroller General auditing standards that include general
standards as well as fieldwork standards and reporting standards for financial and
performance audits. The DCMA Audit Manual, chapter1, section 1.3, dated January 6,
2012, reiterates the same statement from the 2010 version. The DCMA IRT Audit Manual,
chapter 3, section 3.2, II (c), dated January 6, 2012, states the supervisory auditors and the
executive director are responsible for monitoring audit progress to ensure that auditors
exercise professional judgment, work is being conducted in accordance with GAGAS
and DCMA policies and procedures, and audit findings and conclusions are adequately
supported. However, this statement is addressed in the context of supervision of an audit
and not as part of the overall monitoring of quality control.


Recommendations, Comments, and Response
A.1 Recommendation
We recommend that the Director, DCMA:

Update the DCMA IRT Audit Manual to include policies and procedures for monitoring
quality in the audit organization at least annually.


A.1 Management Comments
The Director, DCMA concurred. The DCMA IRT Audit Manual is being revised to include
the policies and procedures for annual monitoring of quality control. DCMA IRT plans to
review all completed audits for compliance with GAGAS. The results will be summarized
and communicated to all Auditors.


A.1 Our Response
DCMA comments were responsive. No additional comments are needed.


    A.1.a Recommendation
    Prepare a 2-year plan for performing annual quality control reviews and monitor the
    progress of the quality control plan.




                                                                                             DODIG-2013-065 │ 3
Appendices



                     A.1.a Management Comments
                     The Director, DCMA concurred. DCMA will develop a 2-year plan by May 31, 2013, that
                     will include monitoring of all audits within one year of completion and reviewing and
                     updating the IRT Audit Manual every two years. DCMA plans to use CIGIE checklists
                     and an internally developed checklist to aid in identifying deficiencies and other areas
                     on noncompliance.


                     A.1.a Our Response
                     DCMA comments were responsive. No additional comments are needed.


                     A.1.b Recommendation
                     Ensure that the documentation of quality control reviews is maintained so that they
                     are readily available for review.


                     A.1.b Management Comments
                     The Director, DCMA concurred. DCMA IRT will place documentation on the IRT Portal
                     which is electronically accessible to only IRT auditors at the completion of each review.


                     A.1.b Our Response
                     DCMA comments were responsive. No additional comments are needed.


                     A.1.c Recommendation
                     Track and monitor the progress of deficiencies found in the quality control reviews.


                     A.1.c Management Comments
                     The Director, DCMA concurred. DCMA IRT will determine the cause of deficiencies
                     and take efforts to ensure they are not repeated. DCMA IRT will place a sheet
                     with each area of noncompliance on the IRT Portal and will include a summary of
                     corrective actions and its progress. The tracking sheet will be placed on the IRT portal
                     by May 31, 2013.


                     A.1.c Our Response
                     DCMA comments were responsive. No additional comments are needed.




4 │ DODIG-2013-065
                                                                                               Appendices



Independence
For two audits, Report No. DCMA-DMI-2010-001, “Audit of DCMA Training Management
Processes,” August 20, 2010, and Report No. DCMA-DMI-2011-001, “Audit of DCMA
Telework Program,” November 29, 2011, we identified issues with independence. For the
Audit of DCMA Telework Program, the DCMA IRT relied on the work of a specialist while
performing the audit. However, there was no evidence or audit documentation to show
that the DCMA IRT assessed the independence of the specialist.

GAGAS 3.05 states that when auditors use the work of a specialist, auditors should assess
the specialist’s ability to perform the work and report results impartially as it relates to
their relationship with the program or entity under audit. If the specialist’s independence
is impaired, auditors should not use the work of that specialist.

The DCMA Audit Manual dated April 30, 2010, did not have policy to address independence,
and specifically did not have policy to address the independence of specialist at the time
this audit was performed. In addition, the DCMA IRT Audit Manual dated April 30, 2010,
chapter 1, section 1.3, does not specifically address the independence standard, but states
that the DCMA  IRT adopted the Comptroller General auditing standards that include
general standards as well as fieldwork standards for financial and reporting standards.

However, the DCMA IRT Audit Manual, chapter 1, section 1.8 (c)., dated January 6, 2012,
states that when relying on the work of nonauditors (consultants, experts, specialists,
etc., other than those hired to assist in the audit), IRT auditors should be satisfied as
to the nonauditors professional reputation, qualifications, and independence from the
organization, program, activity, or function being audited. This new policy addresses
independence, and this section of the policy meets GAGAS requirements that DCMA IRT
auditors should assess specialists or nonauditors independence and qualifications.

Also, for the DCMA Training Management Processes Audit, the supervisory auditor did not
have an independence statement documented in the audit working papers. GAGAS 3.07
states that auditors participating in an audit assignment must be free from personal
impairments to independence.

The DCMA Audit Manual, dated April 30, 2010, does not have a specific policy to address
the independence of audit personnel; however, the Audit Manual’s Appendix A is an
independence statement form. Further, the DCMA Audit Manual, chapter 1, section 1.5,
dated January 6, 2012, states that the IRT and its staff, including contracted audit




                                                                                           DODIG-2013-065 │ 5
Appendices



                 services personnel are required to (i) be free from personal and external impairments
                 to independence, (ii) be organizationally independent, (iii) maintain an independent
                 attitude and appearance in all matters relating to audit work, and (iv) complete the
                 statement of independence form.


                 A.2 Recommendation
                 We recommend that the Director, DCMA:

                 Assess the independence of any specialists or nonauditors tasked to perform work on an
                 audit assignment and document the assessment in the audit files.


                 A.2 Management Comments
                 The Director, DCMA concurred. DCMA IRT will require all personnel who perform work
                 on an audit assignment to complete a Statement of Independence form. DCMA IRT plans
                 to incorporate this requirement in the revised IRT Audit Manual by March 31, 2013.


                 A.2 Our Response
                 DCMA comments were responsive. No additional comments are needed.


                     A.2.a Recommendation
                     Require the supervisory auditor to prepare an independence statement and include
                     it with the audit documentation to correspond to the DCMA IRT January 2012 Audit
                     Manual requirements.


                     A.2.a Management Comments
                     The Director, DCMA concurred. The supervisory auditor will prepare an independence
                     statement for all audits. DCMA IRT plans to include this requirement on the internally
                     developed checklist for monitoring of completed audits to ensure compliance.


                     A.2.a Our Response
                     DCMA comments were responsive. No additional comments are needed.




6 │ DODIG-2013-065
                                                                                                Appendices



Planning
For two audits, Audit of DCMA Training Management Processes and Audit of DCMA
Telework Program, we identified issues with audit planning. Specifically, we found
that both audits did not include documentation of risk of fraud during audit planning.
In addition, for one of the audits reviewed, steps to the audit program had been added
without obtaining supervisory approval.

GAGAS 7.30 requires auditors to assess risks of fraud occurring that are significant within
the context of the audit objectives. The DCMA Audit Manual, section 3.15, IV, dated
April 30, 2010, states that while reviewing controls, the auditor must be alert to situations
or transactions that could be indicative of fraud.

DCMA Audit Manual, chapter 2, section III, (c) (2), dated January 6, 2012, states that
consistent with the audit objective, the lead auditor will design audit steps to assess
compliance with relevant laws and regulations and to provide reasonable assurance of
detecting fraud, abuse, or other illegal acts. For both audits reviewed, we did not identify
any working papers supporting that an assessment of fraud risks had been performed
during audit planning.

For the audit of the DCMA Telework Program, steps were added to the audit program to
include sampling methodology after the supervisor had approved the audit program. The
steps were handwritten into the audit program; therefore, it was difficult to determine
whether the supervisor approved the audit steps.

GAGAS 7.51 states that a written audit plan provides an opportunity for the audit
organization management to supervise audit planning and to determine whether:

         •	 the proposed audit objectives are likely to result in a useful report,

         •	 the audit plan adequately addresses relevant risks, and

         •	 the proposed audit scope and methodology are adequate to address the
            audit objectives.

The DCMA Audit Manual, chapter 2, section 2.3, I (a and b), dated April 30, 2010, states
that the supervisory auditor, as a second-level supervisor will approve overall objectives
and audit programs, monitor audit programs and performance, and approve requests for
deviation from the approved project plan.




                                                                                            DODIG-2013-065 │ 7
Appendices



                 The DCMA Audit Manual, chapter 4, section 4.2, II (e), dated January 6, 2012, states
                 that the supervisory auditor will approve any changes made to the audit program
                 during execution.


                 A.3 Recommendation
                 We recommend that the Director, DCMA, issue a memorandum to remind DCMA IRT staff
                 to adhere to GAGAS requirements to perform and document fraud risks during audit
                 planning, and obtain supervisory review and approval when audit programs are updated.


                 A.3 Management Comments
                 The Director, DCMA concurred. The Director, DCMA issued a memorandum on March 11,
                 2013, to remind the DCMA IRT audit staff to include fraud risks in the planning phase of
                 the audit.


                 A.3 Our Response
                 DCMA comments were responsive. No additional comments are needed.


                 Audit Documentation
                 For the Audit of DCMA Telework Program, the audit documentation was not sufficient
                 to identify why part of the initial scope of the review was dropped for review during
                 the audit.

                 GAGAS 7.77 states that auditors must prepare audit documentation related to planning,
                 conducting, and reporting for each audit.     Further, auditors should prepare audit
                 documentation in sufficient detail to enable an experienced auditor, having no previous
                 connection to the audit, to understand from the audit documentation the nature, timing,
                 extent, and results of audit procedures performed; the audit evidence obtained and its
                 source; and the conclusions reached, including evidence that supports the auditors’
                 significant judgments and conclusions.

                 DCMA Audit Manual, chapter 4, section 4.4, II (c) (1), dated April 30, 2010, states that
                 neatness and clarity are essential elements of all working papers to develop meaningful
                 and understandable exhibits and schedules.




8 │ DODIG-2013-065
                                                                                              Appendices



For the Audit of the DCMA Telework Program, the original scope included reviewing
FY  2009 data; however, the audit documentation did not clearly identify why the data
were not reviewed. The auditors prepared a working paper identifying why some FY 2010
data were not able to be reviewed, but they did not address in the working paper or in
other documentation why the FY 2009 data were not reviewed.


A.4 Recommendation
We recommend that the Director, DCMA, issue a memorandum to remind DCMA IRT staff
to adhere to GAGAS for preparing audit documentation in a clear and concise manner
with sufficient detail to support the report.


A.4 Management Comments
The Director, DCMA concurred.         The Director, DCMA issued a memorandum on
March  11, 2013, to remind DCMA IRT audit staff to adhere to GAGAS when preparing
audit documentation.


A.4 Our Response
DCMA comments were responsive. No additional comments are needed.


Quality Control
In some instances, the supporting audit documentation for the Audit of DCMA Telework
Program and the Audit of DCMA Training Management Processes was difficult to locate
in the working papers. In addition, audit documentation for the Audit of DCMA Telework
Program did not show whether the auditor addressed the independent referencer
reviewer’s comments for accuracy of the report. Although we located support for the
audit reports, improvement in referencing and documenting changes made from reviewer
comments was needed.

GAGAS 7.79 states that audit documentation is an essential element of audit quality. The
process of preparing and reviewing audit documentation contributes to the quality of
an audit. Audit documentation serves to provide the principal support for the auditors’
report, aid auditors in conducting and supervising the audit, and allow for the review of
audit quality.

The DCMA Audit Manual, chapter 5, section II, 5.8(f) (3), dated April 30, 2010, states that
when the review is independently referenced, the auditor will respond to each referencing
note indicating agreement or disagreement and specify the actions that have been taken
or will be taken to correct the discrepancy.



                                                                                          DODIG-2013-065 │ 9
Appendices



                 A.5 Recommendation
                 We recommend that the Director, DCMA, issued a memorandum to remind DCMA IRT
                 staff to comply with the DCMA IRT Audit Manual to independently reference audit reports
                 and ensure that the referencer’s comments or concerns are addressed and documented
                 before report issuance.


                 A.5 Management Comments
                 The Director, DCMA concurred. The Director, DCMA issued a memorandum on March 11,
                 2013, to remind DCMA IRT audit staff to independently reference audit reports and
                 ensure that the referencer’s comments or concerns are addressed and documented before
                 report issuance.


                 A.5 Our Response
                 DCMA comments were responsive. No additional comments are needed.




10 │ DODIG-2013-065
                                                                                                                                Appendices




Appendix B
Monitoring of Independent Public Accountants
We reviewed the DCMA IRT monitoring of audit work performed by an Independent
Public Accountant (IPA) for Report No. DCMA-DMI-2012, “Review of the DCMA’s Use
of the Defense Travel System,” May 24, 2012. While the monitoring of the IPA was not
subject to GAGAS, we reviewed one of the engagements as it was a significant part of the
DCMA’s internal review activities.

We identified the following deficiencies:

              •	 The DCMA IRT did not have a plan or oversight policy in place for reviewing
                 the contracts. The auditors did take appropriate steps in monitoring the
                 contract, such as reviewing deliverables and ensuring that the deliverables
                 were obtained in accordance with the terms of the contract, but a plan was not
                 in place to ensure that the auditors followed appropriate steps for monitoring.

              •	 An auditor was added to the contract after award without an assessment
                 of qualifications. The audit team should obtain information on all auditors
                 assigned to the audit to ensure that they are independent and qualified.

              •	 The auditors had a copy of the last peer review upon contract award, but
                 the peer review was almost 3 years old and they did not obtain or ask for
                 the annual summary of results of its monitoring procedures. The CIGIE
                 Appendix F states that for peer review reports older than 1 year, the auditors
                 may also consider obtaining additional information about the IPA’s system
                 of quality control; for example, the IPA’s annual summary of the results of its
                 monitoring procedures. When the contract was awarded in 2011, the last
                 peer review was dated December 1, 2008.

              •	 The auditors did not put a copy of the finalized report in the TeamMate3 file.
                 The auditors should document information for the contract to include the
                 final report.




	3	
      TeamMate is the electronic audit management system that DCMA IRT uses to prepare and store their working papers,
      findings, documentation supporting analysis and conclusions, and audit reports. Additional TeamMate information can be
      found at www.cchteammate.com.




                                                                                                                           DODIG-2013-065 │ 11
Appendices



                 B.1 Recommendation
                 We recommend that the Director, DCMA:

                 Prepare a comprehensive plan for overseeing contracted auditing services. The plan
                 should document the oversight review, the level of review, oversight strategies, and
                 monitoring procedures.


                 B.1 Management Comments
                 The Director, DCMA concurred. DCMA IRT will develop a comprehensive plan for
                 overseeing contracted audit services and include procedures from DOD IG’s Report No.
                 D-2009-6-003, “Key Strategies and Practices for Oversight of DOD Contracted Audit
                 Services,” March 3, 2009. DCMA IRT will include the plan in the revised IRT Audit Manual
                 by March 31, 2013.


                 B.1 Our Response
                 DCMA comments were responsive. No additional comments are needed.


                      B.1.a Recommendation
                      Ensure oversight procedures include obtaining the latest quality control report prior
                      to awarding the contract.


                      B.1.a Management Comments
                      The Director, DCMA concurred. DCMA IRT will ensure that latest quality control
                      report is used prior to awarding a contract for audit services. DCMA IRT plans to
                      include this procedure in the revised IRT Audit Manual by March 31, 2013.


                      B.1.a Our Response
                      DCMA comments were responsive. No additional comments are needed.




12 │ DODIG-2013-065
                                                                                            Appendices



B.1.b Recommendation
Continually monitor, assess, and document the qualifications of the audit staff assigned
to the audit to make sure that the GAGAS competency standard is followed.


B.1.b Management Comments
The Director, DCMA concurred. DCMA IRT plans that the COTR (Contracting Officer’s
Technical Representative) will request and determine if the new auditors assigned
to the contract are qualified to be on the audit team. DCMA IRT plans to include this
procedure in the revised IRT Audit Manual.


B.1.b Our Response
DCMA comments were responsive. No additional comments are needed.




                                                                                       DODIG-2013-065 │ 13
Appendices




                 Appendix C
                 Summary of Interview Results Relating to DCMA Audit
                 Policies and GAGAS
                 We interviewed the DCMA IRT supervisory auditor and five staff members to determine
                 their knowledge of DCMA audit policies and GAGAS. The interviews consisted of questions
                 related to the DCMA IRT audit policies and GAGAS general, fieldwork, and reporting
                 standards. The following table contains a summary of the results of the responses received.


                           Areas Pertaining to DCMA
                      Office of Internal Audit Policies   Staff Responses to Questions
                                and GAGAS Standards

                      Awareness of DCMA IRT Policies      All staff stated they were aware of the audit policies.
                             Compliance with GAGAS        All staff stated that their work complied with GAGAS standards.
                                                          Several of the audit staff expressed concerns with
                                                          organizational independence. We reviewed those concerns and
                                        Independence      determined that an organizational independence impairment
                                                          did not exist.
                                                          Staff responses indicated that the competency requirement
                                                          was fulfilled. Several audit staff expressed concern about audit
                                                          qualifications and meeting continuing professional education
                                         Competence       requirements for audit management. We reviewed those
                                                          concerns and determined continuing professional education
                                                          requirements were met.
                                                          Staff members were knowledgeable about quality control and
                       Quality Control and Assurance      assurance procedures.
                                                          Staff involved with planning stated that they documented
                             Planning (Key Decisions)
                                                          key decisions.
                                                          Staff involved with audit planning stated that they were
                                     Planning (Fraud)     preparing fraud assessment working papers on the
                                                          newer audits.
                                                          All staff stated that they received or provided
                                          Supervision     adequate supervision.
                                Audit Documentation       All staff stated that the audit documentation was adequate.
                                             Evidence     The staff stated that the evidence was adequate.
                                                          The audit staff stated that the reports had quick turnaround
                               Reporting (Timeliness)     times for completion and were timely.




14 │ DODIG-2013-065
                                                                                            Appendices




Appendix D
Scope and Methodology
We reviewed the adequacy of the DCMA IRT compliance with quality policies, procedures,
and standards. In performing our review, we considered the requirements of quality
control standards contained in the July 2007 Revision of GAGAS issued by the Comptroller
General of the United States. GAGAS 3.56 states:

           The audit organization should obtain an external peer review
           sufficient in scope to provide a reasonable basis for determining
           whether, for the period under review, the reviewed audit
           organization’s system of quality control was suitably designed
           and whether the audit organization is complying with its quality
           control in order to provide the audit organization with reasonable
           assurance of conforming with applicable professional standards.

We performed this review from April 2012 to October 2012 in accordance with standards
and guidelines established in the March 2009 CIGIE Guide for Conducting External Peer
Reviews of the Audit Organizations of Federal Offices of Inspector General. We performed
this review in accordance with the Quality Standards for Inspections and Evaluations.
In performing this review, we assessed, reviewed, and evaluated audit documentation;
interviewed DCMA IRT auditors, and reviewed DCMA IRT policies that were published on
April 30, 2010, and January 6, 2012.

We judgmentally selected three reports from a universe of five reports issued by the
DCMA IRT during the period of October 1, 2010, to May 30, 2012. In selecting reports, we
worked with the DCMA IRT to establish the universe of reports that were issued during
the review period. We then selected audits that were more recent to review the most
current quality assurance procedures being used, and we chose a variety of audits to
ensure we reviewed multiple types of projects.

The following table identifies the specific reports reviewed. The Type of Review column
contains information that was determined by the report GAGAS compliance statement
and/or the type of review described in the final report.




                                                                                       DODIG-2013-065 │ 15
Appendices



                            Report Number         Report Title and Issue Date          Type of Review
                                                Audit of DCMA Telework
                      DCMA-DMI-2011-001                                         Performance
                                                Program, November 29, 2011
                                                Audit of DCMA Training
                      DCMA-DMI-2010-001         Management Processes,           Performance
                                                August 20, 2010
                                                Review of the DCMA’s Use of
                      DCMA-DMI-2012-2           the Defense Travel System,      Contract
                                                May 24, 2012

                 Our review would not necessarily disclose all weaknesses in the system of quality
                 control or all instances of noncompliance because we based our review on selective tests.
                 There are inherent limitations in considering the potential effectiveness of any quality
                 control system. In performing most control procedures, departures can result from
                 misunderstanding of instructions, mistakes of judgment, carelessness, or other human
                 factors. Projecting any evaluation of a quality control system into the future is subject to
                 the risk that one or more procedures may become inadequate because conditions may
                 change or the degree of compliance with procedures may deteriorate.




16 │ DODIG-2013-065
                                           Comments




Comments
Defense Contract Management Agency




                                     DODIG-2013-065 │ 17
Comments




18 │ DODIG-2013-065
      Comments




DODIG-2013-065 │ 19
Comments




20 │ DODIG-2013-065
                                                                           Acronyms & Abbreviations



Acronyms and Abbreviations
     CIGIE Council of the Inspectors General on Integrity and Efficiency
    DCMA Defense Contract Management Agency
   GAGAS Generally Accepted Government Audit Standards
       IPA Independent Public Accountants
       IRT Internal Review Team




                                                                                    DODIG-2013-065 │ 21
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
